TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                The Program to Protect Hardcopy Personally
                Identifiable Information Is a Work-in-Progress



                                      September 12, 2008

                             Reference Number: 2008-IE-R002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 12, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER, OPERATIONS SUPPORT


 FROM:                          Philip Shropshire
                                Acting Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                      Final Inspection Report – The Program to Protect Hardcopy Personally
                               Identifiable Information Is a Work-in-Progress (Inspection
                               #200810IE008)

 This report presents the results of our inspection to determine what actions the Internal Revenue
 Service (IRS) is taking to protect hardcopy personally identifiable information (PII)1 that is
 shipped from office to office and how the IRS responds when a disclosure of hardcopy PII
 potentially occurs.

 Impact on the Taxpayer
 Every year, the IRS mails hardcopy PII in millions of packages and letters by commercial
 carriers and the United States Postal Service. While the overwhelming majority of commercially
 shipped packages reach their destinations without incident, the few packages that are
 compromised present opportunities for identity theft. Taxpayer confidence that information sent
 to the IRS is properly protected from identity theft is critical to the voluntary compliance system.




 1
   Personally identifiable information (PII) refers to information that can be used to distinguish or trace an
 individual’s identity, such as their name, Social Security Number, biometric records, etc., alone or when combined
 with other personal or identifying information which is linked or linkable to a specific individual, such as date and
 place of birth, mother’s maiden name, etc. Hardcopy PII is in paper or other physical form rather than in electronic
 format, such as on a laptop.
                The Program to Protect Personally Identifiable Information Is a
                                     Work-in-Progress




Synopsis
In recent years the public has become increasingly aware that their PII can be compromised
while in the possession of a third party. Identity theft victims have shared their stories of how
their lives have been turned into chaos. Several highly publicized data breaches, generally
involving electronic data files, have taken place in both the private and public sectors. The IRS
is responsible for protecting electronic PII for its employees and millions of taxpayers.
Additionally, the IRS still has millions of paper records with PII that must be shipped from one
location to another.
The IRS ships packages primarily via the United States Postal Service and the United Parcel
Service (UPS). In Fiscal Year 2007, the IRS sent over 150 million pieces of mail to taxpayers
through the United States Postal Service and more than 3 million packages were shipped via
UPS. While some UPS packages are damaged, misdirected or lost, disclosures from these types
of incidents are minimal. However, to the taxpayers whose PII is compromised, the potential for
identity theft is a valid concern.
The IRS established the Privacy, Information Protection and Data Security Office ([PIPDS]
hereafter referred to as the Office) to protect sensitive data by reducing the risk of inadvertent
disclosures. Since its establishment in July 2007, the Office has investigated over 300 potential
data breaches to determine whether taxpayer notification is appropriate. They have also hired a
consulting firm to review procedures associated with shipping documents between IRS offices.
The Office also has studied and developed recommendations to reduce the use of Social Security
Numbers (SSN) when appropriate. Finally, the Office is spearheading the Operation R.E.D.
(Review, Encrypt, Decide) initiative, designed to remind IRS employees how to protect PII.
We recognize that many problems with hardcopy PII protection have been long-term problems
and will not be easily solved. The Office has identified these problems and either has plans or
has already initiated actions to address them. Our inspection identified some areas where
additional actions could improve operations.
First, we found that hardcopy PII cases could not be readily distinguished from electronic PII or
mixed media incidents in the incident reporting database. Second, not all packages contain a list
of items shipped, and package originators do not always monitor package delivery and initiate
appropriate actions if packages are lost. Third, formal procedures to improve how packages are
assembled and shipped have not been issued. Fourth, the study on shipping hardcopy PII being
conducted by a consulting firm did not include shipments to Federal Records Centers.

Recommendations
We recommend that the Director of PIPDS collaborate with the Director, Computer Security
Incident Response Center (CSRC), to develop a new incident code that clearly separates

                                                                                                    2
                The Program to Protect Personally Identifiable Information Is a
                                     Work-in-Progress



hardcopy PII loss from other types of losses; require originators to maintain a list of the package
contents to enable the IRS to identify lost items and whom to notify; reinforce the need for
mandatory monitoring of all packages by the originator to ensure receipt; and initiate follow-up
actions as appropriate. Also, the PIPDS Director should monitor actions to ensure that planned
enhancements to shipping procedures are made formal and perform a risk assessment on the
shipment of documents to Federal Records Centers.

Response
IRS management generally agreed with our recommendations. The CSIRC database has the
necessary capability for data loss reporting and tracking processes. PIPDS will continue to
update reporting and tracking processes to support identifying trends and develop mitigation
strategies. Also, a review of the Document Transmittal, Form 3210, will be included in the
current SSN Elimination and Reduction initiative, and the effectiveness of the document
transmittal process will be evaluated during a shipping process risk assessment. The assessment
is being conducted to provide further insight and validation for the enhancements identified to
strengthen shipping procedures and other improvement opportunities. The Director, PIPDS will
continue to work with key stakeholders to implement the procedural improvements to strengthen
IRS shipping procedures. Management also agreed to expand the scope of the shipping process
risk assessment to include shipping tax returns and other taxpayer and employee hard copy data
from IRS facilities to the Federal Record Centers. Management’s complete response to the draft
report is included as Appendix IV.
Please contact me at (202) 927-7048 if you have questions or Kevin Riley, Acting Director,
Inspections and Evaluations, at (972) 249-8355.




                                                                                                  3
                      The Program to Protect Personally Identifiable Information Is a
                                           Work-in-Progress




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Office of Privacy, Information Protection and Data Security Has
          Significant Accomplishments in Less Than a Year of Operation.................Page 3
                    Recommendation 1:..........................................................Page 6

                    Recommendations 2 and 3: ................................................Page 8

                    Recommendation 4:..........................................................Page 9

          Summary .......................................................................................................Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
         The Program to Protect Hardcopy Personally Identifiable
                   Information Is a Work-in-Progress




                     Abbreviations

CSIRC          Computer Security Incident Response Center
FISMA          Federal Information Security Management Act of 2002
IRS            Internal Revenue Service
OMB            Office of Management and Budget
OPIP           Office of Privacy and Information Protection
PII            Personally Identifiable Information
PIPDS          Privacy, Information Protection, and Data Security
R.E.D.         Review, Encrypt (and/or safeguard), Decide
SSN            Social Security Number
UPS            United Parcel Service
                        The Program to Protect Hardcopy Personally Identifiable
                                  Information Is a Work-in-Progress




                                             Background

Many Americans each year suffer the financial and
emotional trauma caused by identity theft. While the                     “... the problem of identity theft has
                                                                              become more complex and
risk has greatly increased because of electronic record-                  challenging for the general public,
keeping, the concern about protecting hardcopy                             the government, and the private
personally identifiable information (PII)1 is not new. As                               sector.”
early as 1977, the Government Accountability Office2
                                                                          The President’s Identity Theft Task Force
reported that the IRS tax return mailing procedures and                  “Combating Identity Theft: A Strategic Plan”
practices needed more stringent controls. Some of those                                  April 2007
same issues are relevant today.
To address the concern about the Federal Government’s protection of personal information, the
President’s Task Force on Identity Theft was established by Executive Order 13,4023 on
May 10, 2006. It was charged with developing a strategic plan for the Federal Government to
combat identity theft and recommending actions for the public and private sectors should take.
Consumers wrote to the Task Force, urging the public and private sectors to do a better job of
protecting their Social Security Numbers (SSNs), and many discussed the challenges raised by
the overuse of SSNs as identifiers.
According to the Task Force’s strategic plan, identity theft depends on access to consumer data.
Data compromises can expose consumers to the threat of identity theft or related fraud, damage
the victim’s reputation, and carry financial costs for everyone involved. Although the strategic
plan was not released until April 2007, an interim recommendation suggested that the Office of
Management and Budget (OMB) issue data breach guidance to all agencies. In September 2006,
the OMB issued guidance to Federal agencies for responding to data breaches. On
May 22, 2007, the OMB issued a memorandum requiring agencies to develop and implement a
breach notification policy within 120 days.
Hardcopy PII maintained by the Internal Revenue Service (IRS) is subject to the Privacy Act of
1974 and the Federal Information Security Management Act of 2002 (FISMA). The Privacy Act

1
  Personally identifiable information (PII) refers to information that can be used to distinguish or trace an
individual’s identity, such as their name, Social Security Number, biometric records, etc., alone or when combined
with other personal or identifying information which is linked or linkable to a specific individual, such as date and
place of birth, mother’s maiden name, etc. Hardcopy PII is in paper or other physical form rather than electronic
format, such as on a laptop.
2
  IRS’ Security Program Requires Improvements to Protect Confidentiality of Income Tax Information GGD-77-44
July 11, 1977.
3
  Executive Order No. 13,402, 3 C.F.R. 225-228 (2007), amended by Executive Order No. 13,414, C.F.R. 250
(2007).
                                                                                                                  Page 1
                       The Program to Protect Hardcopy Personally Identifiable
                                 Information Is a Work-in-Progress



prohibits disclosure of records without consent of the individual to whom the record pertains.
The FISMA requires each agency to follow National Institute of Standards and Technology4
guidance and standards by implementing procedures for detecting, reporting, and responding to
security incidents. The FISMA also requires agencies to notify and consult with the Federal
Information Security Incident Center, law enforcement agencies, and the agency Inspector
General on any reported incidents.
Because of the nature of IRS work processes, a tremendous volume of taxpayer and employee
PII is at risk. The IRS ships packages from office to office primarily via the United States Postal
Service and the United Parcel Service (UPS). In Fiscal Year 2007 more than 3 million packages
were shipped via UPS and an additional 10,000 by Federal Express. While some UPS packages
are damaged, misdirected or lost, disclosures from these types of incidents are minimal.
This inspection was performed at the IRS National Headquarters in Washington, D.C., and in the
Office of Privacy, Information Protection, and Data Security ([PIPDS] hereafter referred to as
the Office) during the period April through May 2008. This review was performed in
accordance with the President’s Council on Integrity and Efficiency Quality Standards for
Inspections. Detailed information on our inspection objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




4
  The National Institute of Standards and Technology (NIST) is a part of the U.S. Department of Commerce and is
responsible for developing standards that other Federal agencies are required to follow.
                                                                                                         Page 2
                    The Program to Protect Hardcopy Personally Identifiable
                              Information Is a Work-in-Progress




                                 Results of Review

The Social Security Administration reports that identity theft is one of the fastest growing crimes
in the United States. Several widely publicized incidents have amplified the need to prevent
inadvertent information disclosures and to respond quickly when disclosures occur. The OMB
provided the Executive Branch with guidance on protecting PII.
In response to this quickly evolving environment, the IRS established an office to oversee the
protection of private information and data. As part of its current initiatives, the Office is
studying all reported incidents of potential disclosure and how hardcopy data is shipped to
various destinations. It has assessed how PII is used, how it might be inadvertently disclosed,
how to limit such disclosures, and how it can better respond when disclosures occur.
Additionally, the Office is studying ways to eliminate the use of SSNs when feasible. Finally, it
is spearheading an agency-wide review called Operation R.E.D. (Review, Encrypt, and Decide)
to remind employees of their role in properly safeguarding information.
Less than a year after its creation, the Office has had significant accomplishments. It has
investigated over 300 potential data breaches to determine whether taxpayer notification is
appropriate. It also has studied and developed recommendations to reduce the use of SSNs when
appropriate. We recognize that many problems with hardcopy PII protection have been long-
term problems, and these will not be solved easily. The Office has identified these problems and
has plans, or has already initiated actions, to address them.
Our inspection identified some areas where additional actions could improve operations. First,
we found that hardcopy PII cases could not be readily distinguished from electronic PII or mixed
media incidents in the incident reporting database. Second, not all packages contain a list of
items shipped, and package originators do not always monitor package delivery and initiate
appropriate actions if packages are lost. Third, formal procedures to improve how packages are
assembled and shipped have not been issued. Fourth, the study on shipping hardcopy PII being
conducted by a consulting firm did not include shipments to Federal Records Centers.

The Office of Privacy, Information Protection and Data Security Has
Significant Accomplishments in Less Than a Year of Operation
The IRS established the Office in July 2007. It reports directly to the Deputy Commissioner,
Operations Support, and functions at the same organizational level as the Chief Information
Officer, the Chief Financial Officer, the Human Capital Officer, and the Chief, Agency-Wide
Shared Services. As of April 2008, the Office had a staff of about 40 employees.


                                                                                            Page 3
                         The Program to Protect Hardcopy Personally Identifiable
                                   Information Is a Work-in-Progress



The organizational mission of this Office is: “To preserve and enhance public confidence by
advocating for the protection and proper use of identity information.”
The Office has two components: Privacy and Information Protection (OPIP); and Online Fraud
Detection and Prevention (OFDP). Our inspection was limited to the OPIP, which performs its
mission through two staffs designed to focus on specific technical areas in privacy and identity
protection.
Recent major accomplishments of OPIP include developing assessment and notification
procedures to evaluate the significance of reported disclosures, studying the causes of disclosures
during shipping, and studying methods to reduce or eliminate the use of SSNs when feasible.
Below is a description of these areas.

Breach Notification Policy
The OPIP developed its breach notification process based on OMB guidance. It created a
process to assess reported potential disclosures, determine the likelihood that a disclosure did
occur, and make recommendations on whether individual taxpayers must be notified. An OPIP
team receives incident reports from the Computer Security Incident Response Center (CSIRC) of
potential information breaches. The team performs a risk assessment on each incident,
summarizes the facts developed, and recommends whether individual taxpayers should be
notified that their PII might have been disclosed. In cases where notification is recommended,
those cases are forwarded for review and, if the Identity Theft and Incident Management
Executive Advisory Committee5 concurs with the decision, taxpayers are notified. The level of
risk associated with a potential disclosure incident is summarized in Figure 1.
                                           Figure 1: Risk Levels
      RISK ASSESSMENT                 RISK
                                                                    DESCRIPTION
             LEVEL                    CODE
      Level One                       Green        Risk of identity theft or other harm is unlikely.
      Level Two                       Yellow       Risk of identity theft or other harm is possible.
      Level Three                      Red         Risk of identity theft or other harm is likely.
                                                   The information could compromise National
      Level Four                        Blue       Security, Grand Jury, or Criminal Investigation.
     Source: Derived by IRS Privacy, Information Protection and Data Security from OMB guidance.




5
    See Appendix IV for a list of the Committee members.
                                                                                                   Page 4
                           The Program to Protect Hardcopy Personally Identifiable
                                     Information Is a Work-in-Progress



Notification groups have been established to issue letters specifically designed for this program.
The letters offer individuals credit monitoring provided through Equifax6 for 1 year. This offer
does not extend to businesses, but other avenues are being explored that would not preclude
notification to businesses if financial data was breached. In addition, a dedicated toll-free
number has been established to handle taxpayers’ inquiries related to personal information
disclosure cases. All other IRS Customer Service Representatives have been instructed about
where to route personal information disclosure calls.
Additionally, in January 2008, the IRS created an indicator code for application to the accounts
of taxpayers who have been determined to be the victims of identity theft, regardless of how it
occurred. The IRS expects that by January 2009 this code will allow legitimate returns to be
properly processed and will prevent questionable returns from being associated with the
taxpayers’ accounts. In the fall of 2008, the IRS will also implement new indicator codes to
place on the accounts of three additional taxpayer groups: 1) self-identified victims of identity
theft who have not yet experienced a problem with their tax accounts;
2) IRS-identified victims of identity theft; and 3) individuals who have received breach
notification letters from the IRS.
We reviewed the 63 potential disclosure incidents reported during the period January 2008
through March 2008 and found that 21of the cases involved hardcopy PII being shipped by the
IRS via UPS. Fourteen of the 21 cases were categorized as Code Red incidents (risk of identity
theft or other harm is likely), and the decision was made to notify the 90 affected individuals and
offer them credit monitoring services.
The largest number of individuals affected by a hardcopy incident, however, is likely to be those
initiated by an IRS computer application. For example, on December 11, 2007, an incident was
reported in which 9,951 letters were mailed to taxpayers containing account information for a
taxpayer other than themselves. These taxpayers were notified of the disclosure and were
offered credit monitoring services.
When performing our review, we found that for CSIRC the “hardcopy only” PII cases could not
be readily distinguished from the electronic PII cases or mixed media incidents. For information
purposes and trend analyses, the capability to separate the two types of cases could be beneficial
and would eliminate a manual process. The OPIP maintains a separate database intended to
facilitate this type of analysis while programming changes are being pursued for the CSIRC
reports. A revision to the report intake form is also underway.




6
    Equifax is a consumer credit reporting agency. It is not a government entity.
                                                                                            Page 5
                    The Program to Protect Hardcopy Personally Identifiable
                              Information Is a Work-in-Progress



Recommendation
Recommendation 1: We recommend that the Director, Privacy, Information Protection and
Data Security collaborate with the Director, Computer Security Incident Response Center to
develop a specific category code to segregate the hardcopy PII losses from other data losses.
       Management’s Response: IRS management will continue to update reporting and
       tracking processes to support identifying trends and develop mitigation strategies.
       Management found that the CSIRC database has the capability to segregate hardcopy PII
       losses from other data losses.

Shipping Hardcopy PII
The inadvertent disclosure of PII during shipping has been identified as a priority. The OPIP has
contracted with a consulting firm to complete an Enterprise-wide Risk and Compliance
Assessment on shipping by August 2008. The IRS shipped more than 3 million packages with
UPS and millions more pieces domestically through the United States Postal Service during
Fiscal Year 2007. This mail included over 150 million letters and notices mailed to taxpayers in
addition to tax returns and files shipped between IRS offices, many containing hardcopy PII.
According to IRS officials, in FY 2007, 183 packages sent via UPS were reported lost or
damaged in shipment. However, two were determined to contain office supplies and did not
pose any disclosure risk. Of the 181 packages for which disclosure might have been an issue, 21
were identified by IRS employees and of these, 18 were recovered and 3 remain unaccounted
for. UPS notified the IRS of 160 lost or damaged packages that it identified. The status of the
160 packages is shown in Figure 2 on the next page.




                                                                                          Page 6
                      The Program to Protect Hardcopy Personally Identifiable
                                Information Is a Work-in-Progress




                               Figure 2: Status of UPS Packages
   NUMBER
     OF                                    RESULTS OF INVESTIGATION
  PACKAGES
                    The packages were sent to the UPS mail facility and were jointly reviewed
       77           by the UPS and the IRS’s Postal and Transport Policy staff.
                    The packages were empty upon discovery and the shipping label or UPS
                    billing invoice did not include a named individual shipper or receiver;
                    however, there was enough information to determine that they were being
                    shipped to and from large IRS offices. Neither the IRS nor UPS know the
       28           extent of potential disclosure from these packages.
       26           The packages were damaged and the contents returned to the IRS.
                    Packages were sent to the UPS mail facility but were identified by the IRS
       17           and forwarded to the correct destinations.
                    Shippers or receivers were identified and notified of the loss and the
       12           documents were recovered.
Source: IRS Postal and Transport Policy Staff.

A couple of observations can be made from the loss of these packages. First, the evidence
suggests that originators do not always complete the Document Transmittal, Form 3210. This
form identifies the specific documents that are being shipped. IRS procedures require that
originators follow up if a receipt copy of the Form 3210 is not received. Second, originators did
not always use the tracking features provided by UPS to ensure that the package reached its
destination.
According to the IRS staff responsible for postal and transport policy within the IRS, UPS
packages are delayed or fail to reach their intended destination largely because:
   •   The package is improperly packed. This allows the contents to shift during shipment and
       can cause the packages to fall. If the box breaks, some or all of the contents can be
       visible to vendor employees.
   •   The outer label is the only source that identifies the shipping and receiving locations. In
       some cases the labels are torn off or are rendered unreadable.
   •   The package is improperly sealed, and this can lead to documents being separated from
       the package.




                                                                                             Page 7
                         The Program to Protect Hardcopy Personally Identifiable
                                   Information Is a Work-in-Progress



Guidelines and shipping instructions for packages containing sensitive PII documents are
available on the IRS web site and the IRS has published Package Preparation Guidelines.7 In
addition, the OPIP is working with over 50 contracted mailrooms to accept recommendations
resulting from the shipping risk assessment.
During this inspection, we noted that shipments of tax returns and other documents to Federal
Records Centers were not included in the shipping risk assessment. These shipments often
include tax returns and usually contain PII. Due to unique requirements,8 the OPIP is
considering conducting a separate Federal Records Center shipment risk assessment. In 2004
and 2007, the Treasury Inspector General for Tax Administration and the Government
Accountability Office9 both reported that the IRS needed a better system to track case files
because many could not be located.


Recommendations
We recommend that the Director, Privacy, Information Protection and Data Security:
Recommendation 2: Require originators to list identifying taxpayer data (excluding the SSN)
on the Form 3210 (Document Transmittal) or other document that lists all items being sent to
ensure that specific documents can be identified for notification when a loss occurs.
         Management’s Response: IRS management agrees that the IRS should continue to
         educate employees on existing shipping policies and procedures, including the use of the
         Form 3210. The effectiveness of the document transmittal process will also be evaluated
         during a shipping process risk assessment.
Recommendation 3: Implement requirements for: 1) mandatory monitoring of all shipments
by the originator to ensure receipt or initiate follow-up actions as appropriate; 2) following the
suggestions of the Postal and Transportation Policy unit to improve packing to prevent
movement within the shipping box; 3) using duplicate UPS shipping labels, preferably with the
tracking number securely attached to the inner package contents, which should be wrapped or
double-boxed, and; 4) using shipping tape, in addition to the peel and stick adhesive strip
supplied on the box, for those packages exceeding five pounds.
         Management’s Response: IRS management agrees that the IRS should continue to
         update policies and procedures to strengthen shipping controls. Because of the

7
  IRS Document 12506 [9-2007].
8
  Examples of some of the unique requirements are: special regulation boxes with specific labels, Standard Form
135, for determination of future disposition; and in the case of grand jury records, special red printed tape for grand
jury records.
9
  Better Procedures Are Needed to Locate, Retrieve, and Control Tax Records (Reference Number 2004-10-186,
dated September 2004) and Tax Administration: The Internal Revenue Service Can Improve Management of Paper
Case Files (Reference Number GAO-07-1160, dated September 2007).
                                                                                                                Page 8
                    The Program to Protect Hardcopy Personally Identifiable
                              Information Is a Work-in-Progress



       importance of this topic, the IRS is conducting a shipping process risk to further provide
       insight and validation for these and other improvement opportunities. The Director,
       PIPDS, will continue to work with key stakeholders in various offices across the
       enterprise to implement procedural improvements to strengthen IRS shipping procedures.
Recommendation 4: Perform a risk assessment of the shipments of documents to the Federal
Record Centers.
       Management’s Response: IRS management agreed with this recommendation. The
       scope of the shipping risk assessment will include the shipping of tax returns and other
       taxpayer and employee data from IRS facilities to the Federal Record Centers.

Implementation of the Social Security Number Reduction and Elimination Plan
The Office of Personnel Management is creating a Unique Identification Number to replace
SSNs on official employment records. Implementation of the nine-digit number is expected by
November 2008. The OPIP submitted a plan for SSN Elimination and Reduction to the
Department of the Treasury in August 2007, issued the Internal Revenue Service Social Security
Number Elimination and Reduction Implementation Plan on November 29, 2007, and expects to
complete all the actions in the plan by March 2009.
The IRS is cataloguing and assessing the collection, usage, and display of the SSNs in five core
areas:
   •   Taxpayer notices.
   •   Human Resources systems.
   •   Internal management systems.
   •   Operational systems.
   •   Paper Loss/Hard Copy Documents, in addition to the FISMA inventory. The focus on
       Paper Loss/Hard copy will address the protection of documents during shipping and
       storage, and system errors, such as double stuffing (notices for more than one taxpayer
       are inserted into one envelope).
The project team will develop policies and procedures detailing the requirements for using SSNs,
when necessary, and eliminating or reducing their use when not necessary. This would include
using only the last four digits of the SSN, a unique identifier, or just a person’s name in
correspondence. The plan also proposes other alternatives to the SSN, such as barcodes and
Personal Identification Numbers. The team also met with the Social Security Administration
staff to better understand how to reduce the use of SSNs as personal identifiers. These efforts
have resulted in a number of successes, including the partial masking of SSNs on 18 Automated



                                                                                           Page 9
                        The Program to Protect Hardcopy Personally Identifiable
                                  Information Is a Work-in-Progress



Collection System10 notices beginning in 2009. Two other SSN usage reductions occurred this
year. The SSNs on Federal tax lien documents filed in public records were partially redacted,
and they were also redacted on the economic stimulus payment notices sent to taxpayers.

Operation R.E.D. (Review, Encrypt and/or Safeguard and Decide) Is in Progress
On April 16, 2008, Commissioner Shulman introduced the Operation R.E.D. initiative. This is
an agency-wide effort to remind IRS employees of existing policies and procedures about
safeguarding and protecting sensitive information. By June 30, 2008, employees were required
to have completed the following process:
     •   Reviewed their electronic files and paper holdings for sensitive information that is
         required to be secured.
     •   Encrypted (electronic) and safeguarded (paper) all sensitive information covered by a
         “need to know” (a continued business need to keep in their possession).
     •   Decided whether information they no longer need to know should be archived or
         destroyed.
Guidance for both managers and employees, including encryption and safeguarding instructions,
has been published on the IRS intranet. The guidance includes reiterating IRS’s Clean Desk
policy, and requires that protected data must be stored in a locked container when non-IRS
personnel have area access during non-duty hours. Furthermore, when PII is in an unsecured
area, including in an employee’s home, it must be stored in a locked container during non-duty
hours. Finally, documents stored offsite, such as at the taxpayer’s office, must be in containers
with bars and locks.
The guidance also suggests good document shipping practices. It states that when employees
ship documents to another IRS facility, they should: 1) use UPS; 2) double wrap or double box
the contents; 3) place shipping labels both inside the envelope or box and on the outside; and 4)
monitor the tracking number to confirm receipt. Shipments of tax returns and information will
be documented on Form 3210 and monitored to ensure that the shipment is received and
acknowledged in a proper and timely manner. Every IRS office that ships tax returns and return
information shall designate specific individuals to be responsible for monitoring the shipments.
In addition, employees are required to follow the recordkeeping requirements of the Internal
Revenue Manual for Recordkeeping and Disclosures. The guidance also provides PII loss
procedures and instructs employees to notify their manager, CSIRC, TIGTA, and the police, if
applicable. Managers are required to certify that Operation R.E.D. was discussed with
employees and that the employees were given time to complete Operation R.E.D. activities.


10
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
                                                                                                         Page 10
                    The Program to Protect Hardcopy Personally Identifiable
                              Information Is a Work-in-Progress



                                          SUMMARY

The Office of Privacy, Information Protection and Data Security has made significant
achievements in a relatively short time period. The overwhelming majority of hardcopy PII that
is shipped arrives without incident. However, for the packages that are compromised, the
potential for identify theft is often high. The continued efforts to remind employees to safeguard
hardcopy PII should help mitigate the risks of shipping documents between offices.




                                                                                          Page 11
                         The Program to Protect Hardcopy Personally Identifiable
                                   Information Is a Work-in-Progress



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine what actions the Internal Revenue Service
(IRS) is taking to protect hardcopy personally identifiable information (PII)1 that is shipped from
office to office and how the IRS responds when a potential disclosure of hardcopy PII occurs.
This review was conducted because the Inspector General has expressed concerns about the
number of hardcopy PII loss incidents that have come to his attention over the past several
months. While most attention to PII is rightfully on PII in electronic format, the IRS still
transports large volumes of hardcopy PII outside of the agency’s physical perimeter via
commercial vendors (primarily via UPS) and the U.S. Postal Service.
We reviewed all 63 incidents reported to the Incident Management Team in the period
January 1, 2008 through March 31, 2008. We found that 21 of the 63 (33 percent) involved
hardcopy PII that was shipped via UPS. To accomplish our objective, we:
I.       Determined what hardcopy PII includes and what is at risk.
         A. Determined what hardcopy PII is mailed between IRS offices.
         B. Determined what hardcopy PII is sent to taxpayers and/or their representatives.
II.      Determined what legislative, regulatory, and administrative requirements exist that
         address hardcopy PII.
         A. Determined what general laws pertain to hardcopy PII.
         B. Determined what IRS-specific laws pertain to hardcopy PII.
         C. Determined what OMB requirements pertain to hardcopy PII.
III.     Determined the organizational context of hardcopy PII.
         A. Determined the volume of annual mailings of notices and letters.
         B. Determined the volume of annual shipment of small packages.
         C. Determined the volume of annual hardcopy PII losses.

1
  Personally identifiable information (PII) refers to information that can be used to distinguish or trace an
individual’s identity, such as their name, Social Security Number, biometric records, etc., alone or when combined
with other personal or identifying information which is linked or linkable to a specific individual, such as date and
place of birth, mother’s maiden name, etc. Hardcopy PII is in paper or other physical form rather than electronic
format, such as on a laptop.
                                                                                                             Page 12
                  The Program to Protect Hardcopy Personally Identifiable
                            Information Is a Work-in-Progress



IV.   Determined IRS efforts to address hardcopy PII.
      A. Determined the Office established to address protection of hardcopy PII.
      B. Determined IRS policies and procedures regarding hardcopy PII.
      C. Determined what current actions have been taken to address hardcopy PII.
V.    Determined the IRS Breach Notification Policy.
      A. Determined the IRS policies and procedures regarding reporting breaches.
      B. Determined how reported breaches are addressed.
      C. Determined the breach notification process in place.




                                                                                    Page 13
                    The Program to Protect Hardcopy Personally Identifiable
                              Information Is a Work-in-Progress



                                                                         Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Acting Director, Office of Inspections and Evaluations
Dolores Castoro, Lead Auditor
Linda P. Lee, Program Analyst




                                                                              Page 14
                  The Program to Protect Hardcopy Personally Identifiable
                            Information Is a Work-in-Progress



                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Privacy, Information Protection, and Data Security OS:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Assessment RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Operations Support




                                                                         Page 15
      The Program to Protect Hardcopy Personally Identifiable
                Information Is a Work-in-Progress



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 16
The Program to Protect Hardcopy Personally Identifiable
          Information Is a Work-in-Progress




                                                     Page 17
The Program to Protect Hardcopy Personally Identifiable
          Information Is a Work-in-Progress




                                                     Page 18
The Program to Protect Hardcopy Personally Identifiable
          Information Is a Work-in-Progress




                                                     Page 19
